                                              EMPLOYMENT AND
                                              TRAINING ADMINISTRATION

Office of Inspector General—Office of Audit




                                              UNEMPLOYMENT INSURANCE SYSTEMS’
                                              INFORMATION TECHNOLOGY CONTINGENCY
                                              PLANS NEED IMPROVEMENT




                                                                         Date: March 31, 2009
                                                                Report Number: 23-09-002-03-315
U.S. Department of Labor                                   March 2009
Office of Inspector General
Office of Audit                                            Unemployment Insurance Systems’
                                                           Information Technology Contingency Plans
                                                           Need Improvement
BRIEFLY…                                                   WHAT OIG FOUND
Highlights of Report Number: 23-09-002-03-315, to the
Deputy Assistant Secretary for Employment and              While ETA encouraged SWAs to follow best practices, it
Training.                                                  did not ensure the SWAs’ plans contained best
                                                           practices, i.e., IT contingency plan elements.
                                                           Specifically, two SWAs did not have plans and 49 out of
                                                           the remaining 51 SWAs’ plans did not include elements
WHY READ THE REPORT                                        determined to be critical to ensure continued availability
After Hurricanes Katrina and Rita devastated the Gulf      of the UI systems.
Coast in 2005, the Employment and Training
Administration (ETA) found the states impacted by the      This situation existed because ETA did not verify SWA
hurricanes had large disparities in their level of         plan existence, nor did the SWAs provide ETA with
preparedness in information technology (IT) and            evidentiary verification of their IT contingency plans. In
operational recovery of the Unemployment Insurance         addition, in some cases, the SWAs did not carry out the
(UI) program.                                              attestations in their respective grant agreements to
                                                           maintain plans. While the SWAs annually attest to
Based on this, the Assistant Secretary requested the       maintaining disaster preparedness plans, ETA did not
Office of the Inspector General (OIG) conduct an audit,    conduct specific verification to ensure the validity of the
as ETA was interested in knowing which states had          SWAs’ self attestations. As a result, ETA relied on
viable plans to deal with emergencies. In September        inaccurate information from the SWA self-attestations.
2008, the OIG issued audit report number 23-08-004-
03-315. This audit identified that while ETA required      WHAT OIG RECOMMENDED
state workforce agencies (SWAs) to develop and             We recommended that the Deputy Assistant Secretary
implement IT contingency plans as a condition of their     for Employment and Training conduct annual
grant agreements, it did not verify that the plans were    verifications of SWAs’ IT contingency plans for
developed or tested. Specifically, the audit found three   existence and reliability using risk-based approaches
of the four SWAs reviewed may not be able to recover       that consider the SWAs’ contingency planning maturity
the UI systems necessary to maintain operational           and likelihood of disasters.
capability in a timely, orderly manner or perform
essential functions during an emergency or other
                                                           ETA generally agreed with OIG's recommendation that
situation that may disrupt normal operations.
                                                           ETA’s oversight of state IT contingency planning would
                                                           be greatly strengthened by implementing an annual
We conducted this follow-on audit to assess the IT
                                                           verification of the SWAs' IT Contingency Plans for
contingency plans for the UI Tax and Benefit Systems
                                                           existence and reliability.
administered by all 53 of the nation’s SWAs.

WHY OIG DID THE AUDIT
The purpose of our audit was to answer the following
question:

    Has ETA ensured SWA partners establish and
    maintain required IT contingency plans vital for UI
    services to continue reliably in the event of a
    disaster or system interruption?

READ THE FULL REPORT
To view the report, including the scope, methodology,
and full agency response, go to:

http://www.oig.dol.gov/public/reports/oa/2009/23-09-
002-03-315.pdf
                                                     U. S. Department of Labor – Office of Inspector General



Table of Contents

Assistant Inspector General’s Report ......................................................................... 1

Results In Brief .............................................................................................................. 2

Objective — Has ETA ensured SWA partners establish and maintain required IT
            contingency plans vital for UI services to continue reliably in the
            event of a disaster or system interruption? .......................................... 3
         Finding — ETA did not ensure SWAs’ UI Tax and Benefit Systems’ IT
                   Contingency Plans were reliable. ....................................................... 3

Recommendation ........................................................................................................ 11

Exhibits
         Exhibit 1 Contingency Plan Maturity and Corresponding Risk............................ 15
         Exhibit 2 Presence of 17 IT Contingency Plan Elements in UI Systems’
                   Plans ................................................................................................... 17
         Exhibit 3 Presence of Critical Elements in SWAs' Plans..................................... 21

Appendices
         Appendix A Background ..................................................................................... 25
         Appendix B Objective, Scope, Methodology, and Criteria .................................. 29
         Appendix C Acronyms and Abbreviations .......................................................... 35
         Appendix D Agency Response to Draft Report .................................................. 37




                                                                                       UI Systems’ IT Contingency Plans
                                                                                           Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
                                     Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


U.S. Department of Labor                  Office of Inspector General
                                          Washington, D.C. 20210




March 31, 2009

                        Assistant Inspector General’s Report



Mr. Douglas F. Small
Deputy Assistant Secretary for
   Employment and Training
U. S. Department of Labor
Frances Perkins Building
200 Constitution Avenue, NW
Washington, DC 20210

After Hurricanes Katrina and Rita devastated the Gulf Coast in 2005, the Employment
and Training Administration (ETA) found the states impacted by the hurricanes had
large disparities in their level of preparedness in information technology (IT) and
operational recovery of the Unemployment Insurance (UI) program. Based on this, the
Assistant Secretary requested the Office of Inspector General (OIG) conduct an audit,
as ETA was interested in knowing which states had viable plans to deal with
emergencies.

In September 2008, in response to this request, the OIG issued audit report, No. 23-08-
004-03-315. The audit identified that while ETA required state workforce agencies
(SWAs) to develop and implement IT contingency plans as a condition of their grant
agreements, it did not verify that the plans were developed or tested. Specifically, the
audit found three of the four SWAs reviewed may not be able to recover the UI systems
necessary to maintain operational capability in a timely, orderly manner or perform
essential functions during an emergency or other situation that may disrupt normal
operations.

To assess the viability of IT contingency planning capabilities for Department of Labor’s
(DOL) UI program nationwide, the OIG performed this follow-on audit which focused on
analyzing all SWA documents submitted to OIG as contingency plans for the UI Tax and
Benefit Systems (UI Systems).

The audit objective was to answer the following question:

     Has ETA ensured SWA partners establish and maintain required IT contingency
     plans vital for UI services to continue reliably in the event of a disaster or system
     interruption?



                                                                        UI Systems’ IT Contingency Plans
                                              1                             Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


The audit covered SWAs’ contingency plans for the UI Systems in all 53 states and
territories having UI programs. To achieve the audit objective, from each SWA, we
obtained their UI system IT contingency plans; other documents purported to be IT
contingency plans; or notifications that no such plans existed. We assessed the
documentation received from 51 SWAs - 2 SWAs (NY and NH) responded that no plan
was in place - for the presence of elements needed in establishing and maintaining a
viable IT contingency planning capability, according to the National Institute of
Standards and Technology (NIST) Special Publication (SP) 800-34, Contingency
Planning for Information Technology Systems.

RESULTS IN BRIEF

While ETA encouraged SWAs to follow best practices, it did not ensure the SWAs’
plans contained best practices, i.e., IT contingency plan elements. Although many
SWAs had plans, the plans did not contain all the elements needed to ensure the
continued, reliable operation of UI services in the event of a disaster or system
interruption. Specifically, 49 out of 51 plans did not include elements determined to be
critical to ensure continued availability of the UI systems.

This situation existed because ETA did not verify SWA plan existence, nor did the
SWAs provide ETA with evidentiary verification of their IT contingency plans. In
addition, in some cases, the SWAs did not carry out the attestations in their respective
grant agreements to maintain plans. While the SWAs annually attest to maintaining
disaster preparedness plans, ETA did not conduct specific verification to ensure the
validity of the SWAs’ self attestations. As a result, ETA relied on inaccurate information
from the SWA self-attestations.

Without adequate IT contingency plans, critical support services provided by these UI
systems may not be available during a disaster or disruption. This may result in the
inability to provide benefits to individuals who rely upon UI for their daily sustenance
during periods of unemployment.

AGENCY RESPONSE

ETA generally agreed with OIG's recommendation that ETA’s oversight of state IT
contingency planning would be greatly strengthened by implementing an annual
verification of the SWAs' IT Contingency Plans for existence and reliability using risk-
based approaches that consider the SWAs' contingency planning maturity and
likelihood of disasters. In addition, ETA provided funding estimates needed to
implement the OIG recommendation. The response is provided in full in Appendix D.




                                                              UI Systems’ IT Contingency Plans
                                             2                    Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


OIG CONCLUSION

ETA management shares our view that effective state information technology (IT)
contingency plans are vitally important to ensure that eligible unemployed workers
receive unemployment insurance (UI) payments following IT failures caused by
disasters or other disruption of normal operations. We feel the implementation of our
recommendation will greatly enhance the UI Program and the accountability at the
Federal level.

RESULTS AND FINDINGS

Objective — Has ETA ensured SWA partners establish and maintain required IT
            contingency plans vital for UI services to continue reliably in the
            event of a disaster or system interruption?

No, ETA did not ensure SWA partners established and maintained required IT
contingency plans.

Although ETA took steps to encourage the SWAs to implement IT contingency plans
that meet recognized best practices, the agency did not ensure the SWAs had plans in
place which included elements vital for UI services to continue in the event of a disaster
or system interruption.

Finding — ETA did not ensure SWAs’ UI Tax and Benefit Systems’ IT Contingency
         Plans were reliable.

Many SWAs did not maintain IT contingency plans for the UI Systems that follow best
practices encouraged by ETA. Best practices are deemed necessary to allow for
reliable continued operation of UI services in the event of a disaster or system
interruption. ETA has strongly encouraged the SWAs to utilize NIST IT security
documents and guidelines, including NIST SP 800-34, since 2004, when it issued UI
Program Letter (UIPL) Number 24-04: Unemployment Insurance Information
Technology Security. We found many UI Systems' IT contingency plans did not contain
elements we determined to be critical to reliably implement the contingency plan and
maintain the information systems’ operations in the event of a disaster or system
interruption. While all SWAs are expected to have viable IT contingency plans, it is
imperative that those SWAs prone to a higher frequency of disasters make better
preparations, starting with maintaining complete and well-documented IT contingency
plans. (See Exhibit 1 for a plot of contingency planning maturity and corresponding risk.)




                                                              UI Systems’ IT Contingency Plans
                                             3                    Report No. 23-09-002-03-315
                                     U. S. Department of Labor – Office of Inspector General


NIST SP 800-34 states: “IT contingency plan development is a critical step in the
process of implementing a comprehensive contingency planning program.”

NIST also iterates that:

       Information technology (IT) and automated information systems are vital
       elements in most business processes. Because these IT resources are so
       essential to an organization’s success, it is critical that the services
       provided by these systems are able to operate effectively without
       excessive interruption. Contingency planning supports this requirement by
       establishing thorough plans and procedures and technical measures that
       can enable a system to be recovered quickly and effectively following a
       service disruption or disaster.

UI Systems' Contingency Plans Absent of Critical Elements

We evaluated the submissions from the 51 SWAs for the existence of plan elements
based on best practices encouraged for use by ETA and found in NIST SP 800-34. For
each of the 17 elements outlined in the chart below, we determined if the element was
present in the documentation submitted. (See Exhibit 2 for a complete listing of the 17
elements’ presence across the 51 SWAs’ plans.) We focused on the plans’ inclusion of
the following 4 elements which, in our judgment, are critical to ensuring a plan is
actionable based on their role in the plan: Line of Succession, Detailed Recovery
Procedures, Reconstitution Phase Procedures, and Contact Information of Contingency
Plan Teams.




                                                             UI Systems’ IT Contingency Plans
                                            4                    Report No. 23-09-002-03-315
                                              U. S. Department of Labor – Office of Inspector General


                           List of 17 Plan Elements
--                Purpose                                 --       Damage Assessment Procedures
--                Applicability                           --       Detailed Recovery Procedures*
--                Scope                                   --       Reconstitution Phase Procedures*
--                Record of Changes                       --       Contact information of CP teams*
--                System Description                      --       Vendor contact information
--                Line of Succession*                     --       Checklists for system recovery
--                Responsibilities                        --       Equip/System requirements lists
-- Overall, the SWAs’  plans
                  Activation    did not all contain the IT-- contingency
                             Criteria                                       plan elements
                                                                   Description/Direction       outlinedsites
                                                                                         to alternative  in
-- NIST SP 800-34.    The magnitude
                  Documented               of Procedures
                                Notification  the documentation problems included:
     * These critical elements are discussed further in the report, including examples of problems found.



  Absence of the Four Critical Elements - We found many UI Systems' IT contingency
  plans did not contain all of the four critical elements to reliably implement the
  contingency plan and maintain the information systems’ operations in the event of a
  disaster or system interruption. Specifically, of the 51 SWAs that provided planning
  documents, 49 out of 51 did not contain all 4 critical elements. Furthermore, 32 of the
  51 plans were lacking in all 4 critical areas. Only two SWAs, Massachusetts and South
  Dakota, had plans containing all four critical elements. Exhibit 2 shows the distribution
  of the 17 elements throughout all 51 SWAs.

  Although many SWAs did not have plans with all the critical elements, there were SWAs
  that showed signs of attempting to put forth a qualified plan in accordance with the best
  practices encouraged by ETA. For example, 3 SWAs had plans with 75 percent of the
  17 elements (13 or more). Exhibit 3 provides a bar graph with a visual representation of
  the existence of the critical planning elements across the 51 SWAs.

  With the understanding these four critical elements should be in place for a contingency
  plan to be viable during a time of disaster, the following assessment results reveal the
  magnitude of the SWAs’ problems across the four critical areas.

                                           Line of Succession

  The line, or order, of succession defines who assumes responsibility for IT contingency
  plan execution in the event the highest authority is unavailable or unable to do so.
  Twenty-nine of 51 SWA submissions did not include a line of succession.
  Twelve SWAs included a partial line of succession; they were missing a full description.

  The severity of this condition is exacerbated when related to the frequency of disasters
  declared in each state. The Federal Emergency Management Agency (FEMA) tracks
  and reports the frequency of disasters declared in each state annually. FEMA ranks the
  states by total number of disasters, which we used for purposes of this audit. (See
  Appendix B: Methodology, for complete ranking.) Of FEMA’s top 25 highest-risk SWAs:
  11 had contingency plans that were missing a line of succession; 1 responded it did not


                                                                          UI Systems’ IT Contingency Plans
                                                      5                       Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


have a contingency plan; and 7 had contingency plans that included a partial line of
succession. This left only 6 of the highest-risk SWAs with plans that included this critical
element.

Examples of the types of problems related to this critical element include:

   •   The third highest-risk SWA’s plan omitted the line of succession element. Other
       documentation from this SWA contained team contact information with team
       leader alternatives but not a fully detailed line of succession.
   •   The sixth highest-risk SWA’s plan had not been updated since 2004 and it did
       not contain any line of succession information.
   •   The seventh highest-risk SWA submitted a document which contained an
       appendix with contact information, and organizational charts, but did not address
       the line of succession that would be effective during an emergency.

NIST SP 800-34 states:

       The order of succession will define who assumes responsibility for
       contingency plan execution in the event that the highest authority (usually
       starting with the Chief Information Officer [CIO]) is unavailable or unable to
       do so.

NIST SP 800-34 also iterates that:

       The order of succession identifies personnel responsible to assume
       authority for executing the contingency plan in the event the designated
       person is unavailable or unable to do so.

The line of succession is a critical element of the contingency plan, as it helps the SWA
avoid confusion during a disaster or disruption by specifying who is responsible for the
plan in the event personnel are incapacitated. As NIST SP 800-34 notes:

       The order of succession will define who assumes responsibility … if the
       CIO has been injured or killed, the Deputy CIO will assume plan
       responsibility; if the CIO and Deputy CIO have been injured or killed, the
       Information Systems Security Manager will assume plan responsibility.

                             Detailed Recovery Procedures

Detailed recovery procedures are critical to allow personnel to restore the UI System or
system components in an approved, step-by-step, manner. Twenty-two of 51 SWA
submissions did not have detailed recovery procedures for their respective UI systems.
Another 20 SWAs’ plans had some recovery procedures, but were missing the full
details needed to timely resume operations.




                                                              UI Systems’ IT Contingency Plans
                                             6                    Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


Of FEMA’s top 25 highest-risk SWAs: 9 had contingency plans that were
missing recovery procedures; 1 responded it did not have a contingency plan, and 9
had contingency plans containing only partial procedures to recover the respective UI
Systems. This left only 6 of the highest-risk SWAs with plans that included this critical
element.

The following examples highlight the concern further:

   •   The sixth highest-risk SWA did not have specific recovery procedures relating to
       its client server operations, i.e., its Windows server recovery procedures included
       a list of system attributes such as Operating System, Host Name, and amount of
       memory; however, no written instructions detailing specific recovery steps for the
       technology listed in the procedure was included.
   •   The ninth highest-risk SWA submitted eight documents, none of which contained
       detailed recovery procedures. One document included high-level descriptions of
       recovery steps, and another contained a reference to a detailed recovery
       procedures appendix that was not part of the submission package.
   •   The fourteenth highest-risk SWA submitted three documents, none of which
       qualified as an IT contingency plan or contained detailed recovery procedures.
       One document was a business analysis from 2004; another document was a
       brochure for emergency teams of all types and not relevant to IT; and the third
       document was a traditional COOP which did not contain the necessary detailed
       recovery procedures to ensure UI system availability.

Recovery procedures are a critical element of the contingency plan. As NIST 800-34
notes, best practices include:

       Recovery phase activities that focus on contingency measures to execute
       temporary IT processing capabilities, repair damage to the original
       system, and restore operational capabilities at the original or new facility.
       At the completion of the Recovery Phase, the IT system will be operational
       and performing the functions designated in the plan.

                           Reconstitution Phase Procedures

Reconstitution phase procedures allow an SWA to return to normal operations of
providing UI benefits after the disaster or disruption has been mitigated. Forty-three of
51 SWA submissions did not include reconstitution phase procedures. Five SWAs had
some reconstitution procedures, but were missing several necessary procedures that
allow for timely system recovery.

Of FEMA’s top 25 highest-risk SWAs: 21 had contingency plans that were missing
reconstitution phase procedures; 1 responded it did not have a contingency plan, and 2
had contingency plans containing only partial reconstitution information. This left only 1
of the highest-risk SWAs with plans that included this critical element.



                                                              UI Systems’ IT Contingency Plans
                                             7                    Report No. 23-09-002-03-315
                                       U. S. Department of Labor – Office of Inspector General


The following examples demonstrate the SWAs’ vulnerability should a disaster occur:

   •   Four of the five highest-risk SWAs did not have plans providing details by which
       an individual could perform reconstitution phase procedures.
   •   The third highest-risk SWA submitted two documents - one contained
       reconstitution procedures at only a very high level and the other provided only a
       narrative description of what reconstitution procedures would be necessary.
   •   The sixth highest-risk SWA provided documentation that specifically outlined the
       need to further develop a detailed reconstitution plan as well as the requirements
       of this document.

Reconstitution phase procedures are an essential part of an IT contingency plan as they
allow an SWA to return to normal operations of providing UI benefits after the disaster
or disruption has been mitigated. An SWA cannot continue operations at an alternate
site for an indefinite period and, without plans to restore normal operations, the SWA
may become unable to function. As NIST SP 800-34 notes:

       In the Reconstitution Phase, recovery activities are terminated and normal
       operations are transferred back to the organization’s facility. If the original
       facility is unrecoverable, the activities in this phase can also be applied to
       preparing a new facility to support system processing requirements.

                   Contact Information of Contingency Plan Teams

Contact information is critical because personnel involved in contingency plan activation
must be able to be notified when plan activation occurs. Twenty-one of 51 SWA
submissions did not list any contact information. Eighteen SWAs list some contact
information, but were missing complete details to contact the contingency plan teams.

Of FEMA’s top 25 highest-risk SWAs: 4 had contingency plans that were missing
contact information, 1 responded it did not have a contingency plan, and 11 had plans
containing only partial contact details. This left only nine of the highest-risk SWAs with
plans that included this critical element.

The following examples bring this problem into even greater focus:

   •   The third highest-risk SWA’s plan listed five departments, the contact and one
       phone number. It did not include alternate numbers or manners of
       communicating with these key contacts.
   •   The seventh highest-risk SWA submitted three documents, none of which
       included adequate contact information — one was a four-page document
       containing narrative descriptions of what recovery efforts would occur and
       contact names without including phone numbers for management personnel and
       personnel at the SWA field offices.




                                                               UI Systems’ IT Contingency Plans
                                              8                    Report No. 23-09-002-03-315
                                       U. S. Department of Labor – Office of Inspector General


   •   The fifteenth highest-risk SWA submitted a narrative description of its UI
       functions and staffing needs during a contingency, but provided no contact
       information.

Contact information for the contingency plan team is a critical element of the
contingency plan. As NIST 800-34 notes:

       Personnel to be notified should be clearly identified in the contact lists
       appended to the plan. This list should identify personnel by their team
       position, name, and contact information (e.g., home, work, and pager
       numbers, e-mail addresses, and home addresses).

       The contact lists generally contain sensitive information and should be
       marked and stored appropriately and disseminated only to those requiring
       access. The lists should be dated and frequently reviewed to ensure
       names, positions, and contact information are up to date.

                                            

The SWA attestations of a disaster recovery capability present risks to the Federal/State
UI program and operations because they may misrepresent the SWAs’ actual level of
preparedness to ETA management should a disaster or system interruption
occur. These risks need to be considered by ETA in assessing how best to improve the
SWAs’ contingency planning efforts. ETA is responsible to ensure the Federal funding
provided to the SWAs via the annual UI funding agreements is expended in accordance
with the grant agreement that require disaster recovery capability. For agencies to
consider and manage risk, the Office of Management and Budget (OMB) issued
Circular A-123, Management’s Responsibility for Internal Control, Introduction, (A-123),
which describes agency managers’ and staff’s responsibilities for efficient use of
resources as:

       The proper stewardship of Federal resources is a fundamental
       responsibility of agency managers and staff. Federal employees must
       ensure that government resources are used efficiently and effectively to
       achieve intended program results. Resources must be used consistent
       with agency mission, in compliance with law and regulation, and with
       minimal potential for waste, fraud, and mismanagement.

A-123 further identifies that managers should manage risk when implementing and
monitoring internal controls:

       Internal control guarantees neither the success of agency programs, nor
       the absence of waste, fraud, and mismanagement, but is a means of
       managing the risk associated with Federal programs and operations.
       Managers should define the control environment (e.g., programs,
       operations, or financial reporting) and then perform risk assessments to


                                                               UI Systems’ IT Contingency Plans
                                              9                    Report No. 23-09-002-03-315
                                     U. S. Department of Labor – Office of Inspector General


      identify the most significant areas within that environment in which to
      place or enhance internal control.

We found many plans lacking substance in their content because ETA did not verify
SWA plan existence nor did the SWAs provide ETA with evidentiary verification of their
IT contingency plans. Furthermore, two SWAs did not even have plans, yet they
attested to ETA that plans existed by signing their annual funding agreements which
contained this assurance of a disaster recovery capability. ETA provides administrative
funding to the SWAs via annual UI Funding agreements (i.e. grant agreements), which
contain requirements of the SWAs. Each SWA must attest to meeting the requirements
outlined in the assurance statements annually, via signature, in order to receive Federal
grant funding for the administration of the SWA’s UI program.

In preparation for the Year 2000 (Y2K), ETA required evidence from each SWA that the
UI Systems’ IT contingency plans had been verified and validated by an independent
entity and tested. In the eight years since Y2K, ETA has relied upon assurances
provided by SWAs as a part of their UI administrative grant agreement that they have
plans in place. ETA has taken a leadership role with the SWAs in promoting strategies
to minimize service disruptions, operations, and services to UI beneficiaries. However,
without requiring specific verification and validation of the plans, ETA’s leadership
activities have not been entirely effective. By not requiring the SWAs to submit
verification of their IT contingency plans, ETA could not ensure SWAs' plans existed or
contained all critical elements. The focus on verification of IT contingency plans that
existed eight years ago has waned in the interim, which has lead to our identified
condition of no ETA verification of IT contingency plan existence. The result was ETA
relying on inaccurate information from SWA self-attestations.

In September 2008 we issued audit report no. 23-08-004-03-315 containing
recommendations for the Assistant Secretary for Employment and Training to enact a
monitoring and review process to verify SWAs develop and test IT contingency plans
necessary to sustain the UI program; and identify and address any weaknesses found
in IT contingency plans. Since our issuance of the report, ETA has developed plans to
implement the report’s recommendations, which we consider to have been resolved.
ETA has not, however, laid out a specific plan to conduct risk-based verification of IT
contingency plan existence for the UI systems.

Without adequate IT contingency plans for the UI Systems, the critical services provided
by these systems may not be available. A disaster or disruption that strikes an SWA’s
UI System could potentially result in the inability to provide benefits to individuals who
rely upon it for their daily sustenance.

According to one SWA's Business Impact Analysis for the UI program:

      UI offers the first line of defense against the ripple effects of
      unemployment by providing payments to unemployed workers to ensure



                                                             UI Systems’ IT Contingency Plans
                                            10                   Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


       that at least a proportion of life’s necessities can be met on a week-to-
       week basis while searching for work.

With the February 2009 national unemployment rate at 8.1 percent — 12.5 million
individuals, the highest level in 26 years — the importance of IT contingency planning
by SWAs to provide uninterrupted UI benefits has been brought to the forefront. A
disaster or disruption that strikes an SWA’s UI System could potentially result in the
SWA's inability to provide benefits to individuals who depend upon it during an
economic hardship. If even a small percentage of unemployed individuals were unable
to access their UI benefits, the consequences could put that person and/or their family
in dire straits.

In summary, reliable SWA contingency plans for the UI program become even more
important in a time of high unemployment because of the high resource demands on the
UI program. An SWA’s UI System must not only be able to survive a disaster or
disruption but also a surge in usage. Recently, several SWAs experienced problems
ranging from website outages to phone line overloads due to heavy usage. If this
scenario were to occur for a prolonged period, and an SWA did not have a reliable IT
contingency plan in place to compensate, benefits may be interrupted as well.



Recommendation

We recommend the Deputy Assistant Secretary for Employment and Training:

   1. Conduct annual verification of SWAs’ IT contingency plans for existence and
      reliability using risk-based approaches that consider the SWAs’ contingency
      planning maturity and likelihood of disasters.




Elliot P. Lewis




                                                              UI Systems’ IT Contingency Plans
                                            11                    Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
               12                    Report No. 23-09-002-03-315
           U. S. Department of Labor – Office of Inspector General




Exhibits




                                   UI Systems’ IT Contingency Plans
                 13                    Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
               14                    Report No. 23-09-002-03-315
                                                                                                                               U. S. Department of Labor – Office of Inspector General


                                                                                                                                                                       Exhibit 1
                                                                    Contingency Plan Maturity and Corresponding Risk
                     55
 High Risk




                                                                     TX
                                                               CA
                                                                                                 FL
                     50                                                                                  OK
                           NY
                                                        LA
                           KY                           AL
                     45                                                                          MO
                           AR                                                                            IL
                                                                                          MS
                                                  OH
                     40                                 PA

                           MN                                 WA            WV
                     35

                                      KS     NE         TN    VA            IA
      Risk Ranking




                     30         IN
                                                                                                                     NC
                                                         ND
                                                  ME
                                GA
                     25           AK         WI
                           VT                                                                           SD
                             MI OR
                     20         NJ
                                HI
                            NH
                     15       PR
                              ID             NM                                                                      MA
                           AZ
                                  MT                                        MD
                     10    SC                                                                                                        NV
                                                              CO
                               VI
                                 CT
 Low Risk




                     5
                                DE
                               DC
                               WY                 RI    UT
                     0
                          0%           10%        20%        30%      40%          50%         60%            70%        80%        90%        100%
                                                                      Percent of All Elements Present
                          Low                                                                                                     High Maturitiy


For each state, the scatter plot displays the risk of a disaster occurring in that state (based on frequency of disasters
declared) along with the corresponding percentage of IT contingency plan elements present in the SWA submissions.
The higher the percentage of elements documented reflects the greater the plan’s maturity and reliability. The data
includes plots for each of the 53 UI jurisdictions, including the two SWAs (NY and NH) that represented they did not have
a contingency plan.




                                                                                                                                                       UI Systems’ IT Contingency Plans
                                                                                                                    15                                     Report No. 23-09-002-03-315
                      U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              UI Systems’ IT Contingency Plans
                 16                               Report No. 23-09-002-03-315
                                                                                                           U. S. Department of Labor – Office of Inspector General


                                                                                                                                                           Exhibit 2
                                                                                                                                             1
                                                  Presence of 17 IT Contingency Plan Elements in UI Systems’ Plans

                                                                                                State Workforce Authorities
                Elements                     AL    AK   AZ   AR   CA   CO   CT   DC   DE   FL   GA    HI    ID   IL   IN   IA   KS   KY     LA   ME   MD   MA   MI   MN   MS     MO
Purpose                                                                                    X                     X                               X    X    X                 X   X
Applicability                                                                              X                     X                               X    X    X                 X   X
Scope                                                                                      X                     X                               X    X    X                 X   X
Record of Changes                                                                                                                                          X                 X
System Description                                                                                               X              X                          X                 X   X
Line of Succession                                                X    X                                                   X                               X                     X
Responsibilities                                                  X    X                   X                     X         X                X         X    X                 X   X
Activation Criteria                                               X                        X                     X         X                          X    X
Documented Notification Procedures                                X    X                   X                     X                          X         X    X                 X
Damage Assessment Procedures                                      X    X                   X                               X                X              X                 X
Detailed Recovery Procedures                                                               X                     X                                         X
Reconstitution Phase Procedures                                                                                                                            X
Contact information of CP teams              X                                                                   X         X                               X                 X   X
Vendor contact information                   X                         X                   X                     X                                                               X
Checklists for system recovery               X                                                                                                                                   X
Equip/System requirements lists              X                    X                        X                     X         X                                                     X
Description/Direction to alternative sites         X                                                                       X                X         X




           1
            An X mark in the chart indicates the element was present in the SWA’s planning documents. For purposes of this analysis, a plan that contained parts or the
           element, i.e. received “partial” in the analysis, was not given an X for present, as the element was found deficient in some manner.

                                                                                                                                          UI Systems’ IT Contingency Plans
                                                                                                 17                                           Report No. 23-09-002-03-315
                      U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              UI Systems’ IT Contingency Plans
                 18                               Report No. 23-09-002-03-315
                                                                                                       U. S. Department of Labor – Office of Inspector General


                                                                                                                                                            Exhibit 2
                                        Presence of 17 IT Contingency Plan Elements in UI Systems’ Plans (continued)

                                                                                               State Workforce Authorities
                Elements                     MT   NE   NV   NJ   NM   NC   ND   OH   OK   OR     PA   PR    RI   SC    SD    TN   TX    UT   VA   VI   VT    WA   WV    WI   WY
Purpose                                           X    X         X    X              X                                  X         X          X                X
Applicability                                          X              X              X                                            X                           X   X
Scope                                             X    X              X                                                 X    X               X                X
Record of Changes                                      X                                                                X
System Description                           X         X                             X                                                   X
Line of Succession                                     X                                         X                      X                    X                X
Responsibilities                                       X         X    X    X         X                                  X    X    X
Activation Criteria                                    X              X                          X                      X         X      X   X                X   X
Documented Notification Procedures                     X              X              X           X                      X    X    X      X                        X
Damage Assessment Procedures                           X              X              X                                  X
Detailed Recovery Procedures                           X              X              X                                  X                    X                    X
Reconstitution Phase Procedures                                       X                                                 X
Contact information of CP teams                        X                   X    X    X                                  X                                         X
Vendor contact information                             X              X    X         X                      X                            X                        X
Checklists for system recovery                         X              X         X                                                 X                                     X
Equip/System requirements lists                        X              X    X    X    X           X          X                X                                    X
Description/Direction to alternative sites                            X              X                      X                                                           X




                                                                                                                                       UI Systems’ IT Contingency Plans
                                                                                                19                                         Report No. 23-09-002-03-315
                      U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              UI Systems’ IT Contingency Plans
                 20                               Report No. 23-09-002-03-315
                                                                                      U. S. Department of Labor – Office of Inspector General


                                                                                                                                Exhibit 3
                                               Presence of Critical Elements in SWAs' Plans


                                             Presence of Critical Elements in SWA's Plans

                 50


                 45


                 40


                 35


                 30
Number of SWAs




                                                                                                                                Yes
                 25                                                                                                             No
                                                                                                                                Partial

                 20


                 15


                 10


                 5


                 0
                      Line of Succession   Detailed Recovery Procedures   Reconstitution Phase      Contact information of
                                                                              Procedures          Contingency Planning teams



                                                                                                               UI Systems’ IT Contingency Plans
                                                                               21                                  Report No. 23-09-002-03-315
                      U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                              UI Systems’ IT Contingency Plans
                 22                               Report No. 23-09-002-03-315
             U. S. Department of Labor – Office of Inspector General




Appendices




                                     UI Systems’ IT Contingency Plans
                     23                  Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
                 24                  Report No. 23-09-002-03-315
                                     U. S. Department of Labor – Office of Inspector General


                                                                              Appendix A
Background

UI Program Background

In 1935, in order to confront the economic woes in the United States caused by massive
job losses during the Great Depression, the Federal-State UI program was created to
help out-of-work individuals, businesses, and the nation's economy as a whole. The
purpose of the program is to provide aid to individuals who are unemployed due to
circumstances outside of their control.

The UI program, a Federal-State partnership, is DOL’s largest income-maintenance
program. The primary law that established the Federal-State UI partnership is the
Social Security Act of 1935. In accordance with Title III, Section 302, of the Social
Security Act, which authorizes the Secretary of Labor to provide funds to administer the
UI program, and Sections 303 (a) (8) and (9), which govern the expenditure of those
funds, the Secretary of Labor has a responsibility to ensure the funds are appropriately
approved for reporting to the Secretary of the Treasury.

While Federal law determines the framework of the program, benefits for individuals are
dependent on state law and administered by the SWAs. The Federal government is
charged with collecting taxes; distributing administrative funding to the states;
maintaining responsibility for the Unemployment Trust Fund; setting and tracking
performance measures; monitoring compliance with both Federal and state
regulations; and creating policy nationwide for administering the program. The SWAs
are charged with constructing policy and procedures in accordance with Federal criteria;
establishing and collecting state taxes; validating claims and paying them out when
acceptable; and running the program according to existing criteria.

ETA Oversight of UI Program

The Secretary of Labor oversees the program through ETA, which oversees the UI
program. ETA provides administrative funding to the SWAs via annual UI Funding
agreements (i.e. grant agreements), which contain requirements of the SWAs.

Some of the requirements of the grant agreement are included in the assurances that
each SWA must annually attest to via signature in order to receive annual Federal grant
funding for the administration of the SWA UI program. In order for the Secretary of
Labor to ensure that SWAs have adequate disaster-recovery capabilities, the grant
agreement between the DOL and each SWA contains an assurance of disaster-
recovery capability.

The “Assurance of Disaster Recovery Capability” (Assurance H) is explained in more
detail in Employment and Training Handbook No. 336, 18th Edition, Unemployment
Insurance State Quality Service Plan (SQSP) Planning and Reporting Guidelines. The
handbook details that “The state assures that it will maintain a Disaster Recovery Plan.”


                                                             UI Systems’ IT Contingency Plans
                                             25                  Report No. 23-09-002-03-315
                                     U. S. Department of Labor – Office of Inspector General



IT contingency planning is an essential element of a disaster-recovery capability.
Proper contingency planning ensures the continued availability of an information system
in the event of a disruption due to a disaster or other system interruption. The Secretary
requires the SWAs to attest to this capability in order to reduce the risk of UI program
unavailability.

ETA has strongly encouraged the SWAs to utilize NIST IT security documents and
guidelines, including NIST SP 800-34, since 2004, when it issued UIPL Number 24-04:
Unemployment Insurance Information Technology Security. This guidance provided the
SWAs with specific information on the NIST IT security guidelines and a software tool to
conduct a security self-assessment of UI computer systems. In accordance with NIST
SP 800-34, proper IT contingency planning can assist in maintaining the continued
availability of an information system in the event of disaster or other system disruption:

      IT systems are vulnerable to a variety of disruptions, ranging from mild
      (e.g., short-term power outage, disk drive failure) to severe (e.g.,
      equipment destruction, fire). Many vulnerabilities may be minimized or
      eliminated through technical, management, or operational solutions as
      part of the organization’s risk management effort ... Contingency planning
      is designed to mitigate the risk of system and service unavailability by
      focusing on effective and efficient recovery solutions.

Audit Background

After Hurricanes Katrina and Rita devastated the Gulf Coast in 2005, ETA found the
states impacted by the hurricanes had large disparities in their level of preparedness in
IT and operational recovery of the UI program. Based on this, the Assistant Secretary
requested the OIG conduct an audit, as ETA was interested in knowing which states
had viable plans to deal with emergencies. In response to this request, the OIG
performed a follow-on audit. The previous audit (OIG audit report no. 23-08-004-03-315)
assessed the level of preparedness at four high-risk SWAs and ETA’s related
monitoring and oversight of the SWAs’ IT contingency planning efforts. This report is
available for view on the OIG’s public website at:
http://www.oig.dol.gov/public/reports/oa/2008/23-08-004-03-315.pdf.

The previous audit included OIG judgmentally selecting a sample of four SWAs, from a
universe of 53, for detailed examination. The sampled SWAs were selected from a list
of states determined to be high-risk based on historical data regarding frequency of
disasters declared in each state from FEMA.

Pursuant to the audit, ETA requested all 53 UI Systems’ IT contingency plans for the
OIG’s review. The auditors received 51 plans, with 2 SWAs responding that they did
not have a plan at the time of the request. Because of time and scope limitations, the
audit focused on the four high-risk SWAs where the auditors performed on-site fieldwork
to assess the SWAs' UI systems’ IT contingency planning controls.


                                                             UI Systems’ IT Contingency Plans
                                             26                  Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General



The audit concluded that ETA required the SWAs to develop and implement disaster-
recovery plans as a condition of their grant agreements, but does not verify that the
plans are developed, tested, or meet accepted practices. The audit showed that three of
four SWAs audited may not be able to recover the UI Systems necessary to maintain
operational capability in a timely, orderly manner or perform essential functions during
an emergency or other situation that may disrupt normal operations. The OIG
recommended the Assistant Secretary for Employment and Training enact a monitoring
and review process to verify SWAs develop and test IT contingency plans necessary to
sustain the UI program; and identify and address any weaknesses found in IT
contingency plans. The Deputy Assistant Secretary for Employment and Training
agreed with the recommendations.

In order to get a full picture of the degree of reliability and maturity of contingency
planning across all UI jurisdictions, the OIG performed the follow-on audit to assess all
UI jurisdictions’ IT contingency plans.




                                                              UI Systems’ IT Contingency Plans
                                              27                  Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
                 28                  Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


                                                                                Appendix B
Objective, Scope, Methodology, and Criteria

Objective

Our audit was designed with the following overall objective:
   Has ETA ensured SWA partners establish and maintain required IT contingency
   plans vital for UI services to continue reliably in the event of a disaster or system
   interruption?

Scope

Our audit scope comprised an audit universe of 53 UI jurisdictions, including 50 states,
the District of Columbia, Virgin Islands, and Puerto Rico. Of the 53 UI jurisdictions, 51
SWAs provided copies of their IT contingency plans or other documents purported to be
IT contingency plans for our review. Two jurisdictions, New York and New Hampshire,
notified us that they did not have IT contingency plans at the time of our request.

A performance audit includes gaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan the audit, we
considered whether internal controls significant to the audit were properly designed and
placed in operation. However, we did not assess overall internal controls.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective.

Methodology

In FY 2008, the OIG conducted an audit to determine if ETA provided sufficient
oversight of SWA IT contingency planning for the UI program in order to minimize
service disruption in the event of a disaster or other situation that may disrupt normal
operations. The methodology for achieving that audit included examining contingency
plans in place at four SWAs located in CA, TX, NY, and LA. We also reviewed ETA
oversight activities in ETA ROs and HQ. We tested to determine if the SWAs had
adequate IT contingency plans in place to support critical UI program functions in the
event of a disaster or service disruption to the IT supporting the UI program. We
selected the sample of 4 SWAs, from a universe of 53, for detailed examination. The
sample states were judgmentally selected from a list of SWAs determined to be high-
risk based on historical data and professional judgment regarding frequency of disasters
declared in each state.


                                                               UI Systems’ IT Contingency Plans
                                              29                   Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


For the current, follow-on audit, we assessed the quality of the responses received from
the 51 SWAs by conducting an examination of the elements that comprise IT
contingency plan development according to NIST Special Publication 800-34,
Contingency Planning for Information Technology Systems.

In planning and performing the audit, we considered ETA’s internal controls as identified
in the previous audit, which we updated during this follow-on audit. Specifically, in order
to assess ETA’s oversight of contingency planning in the SWAs, we conducted
interviews and documentation analysis at the ETA National Office to assess the grant
administration and monitoring activities conducted by ETA in support of the Federal-
State UI partnership. We reviewed the Federal-State UI grant agreement and the level
of guidance, review, and monitoring done at the Federal level. Our review of ETA’s
controls lead us to conclude that while the SWAs annually attest to maintaining disaster
preparedness plans, ETA did not conduct specific verification to ensure the validity of
the SWAs’ self attestations.

Our current audit methodology included a detailed assessment of information that was
submitted by the 51 SWAs. We performed a review of documentary evidence at OIG
offices using an analytical tool consisting of a spreadsheet designed to segregate and
categorize the information received. Data reliability tests were not performed as this
was a performance audit that analyzed the content of contingency plans. The nature of
the audit did not require any reliance on the validity of system generated data.

Responses submitted from the SWAs consisted of bundled information containing one
or more plan(s) or related document(s). Each of those documents were analyzed
individually by the auditors using a separate spreadsheet for each plan for the purpose
of determining which elements are present in the different plans. For each SWA, a
conclusion was made as a whole incorporating all factors being assessed.

The necessity to assess multiple plans was due to overlap in the definition of what
constitutes an IT contingency plan. According to NIST SP 800-34, there are several
types of plans that are related to IT contingency planning.

       IT contingency planning represents a broad scope of activities designed to
       sustain and recover critical IT services following an emergency. IT
       contingency planning fits into a much broader emergency preparedness
       environment that includes organizational and business process continuity
       and recovery planning. Ultimately, an organization would use a suite of
       plans to properly prepare response, recovery, and continuity activities for
       disruptions affecting the organization’s IT systems, business processes,
       and the facility. Because there is an inherent relationship between an IT
       system and the business process it supports, there should be coordination
       between each plan during development and updates to ensure that
       recovery strategies and supporting resources neither negate each other
       nor duplicate efforts.



                                                              UI Systems’ IT Contingency Plans
                                              30                  Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


        In general, universally accepted definitions for IT contingency planning
        and these related planning areas have not been available. Occasionally,
        this unavailability has led to confusion regarding the actual scope and
        purpose of various types of plans.

NIST SP 800-34 provides a description as a common basis of understanding for these
different types of plans. However, because of the lack of standard definitions for these
types of plans, the scope of actual plans developed by organizations may vary from the
descriptions as defined by NIST SP 800-34. As such, our analysis took into
consideration all information submitted by the SWAs in determining which elements
were incorporated in the information provided.

NIST SP 800-34 goes on to define Disaster Recovery Plans (DRP) as follows:
“Frequently, DRP refers to an IT-focused plan designed to restore operability of the
target system, application, or computer facility at an alternate site after an emergency.”

Consequently, the information submitted by the UI jurisdictions was only considered to
the extent that it related to information technology. If a document was submitted that
contained an element, such as a description of the scope, it needed to address the
scope as it pertained to computer systems, as opposed to something like building
security.

Specifically, the analysis was based on section four of NIST SP 800-34, which deals
with IT contingency plan development. This section serves as a guide in deriving a plan
format that incorporates elements of contingency planning. This guide identifies five
main components of the contingency plan. Those components are the (1) supporting
information, (2) notification/activation phase, (3) recovery phase, (4) reconstitution
phase, and (5) the plan appendices. We further identified 17 plan elements within the 5
main components to assess. We placed special emphasis on the existence of four
elements, in our judgment, that are critical to ensuring a plan is actionable. These
elements include:

    •   Line of Succession,
    •   Detailed Recovery Procedures,
    •   Contact information of Contingency Planning (CP) Teams, and
    •   Reconstitution Phase Procedures.

The 17 plan elements within the five main components of the contingency plan are as
follows:

•   Supporting Information
    1. Purpose
    2. Applicability
    3. Scope
    4. Record of Changes
    5. System Description

                                                              UI Systems’ IT Contingency Plans
                                              31                  Report No. 23-09-002-03-315
                                      U. S. Department of Labor – Office of Inspector General


    6. Line of Succession
    7. Responsibilities

•   Notification Phase
    8. Activation Criteria
    9. Documented Notification Procedures
    10. Damage Assessment
•   Recovery Phase
    11. Detailed Recovery Procedures

•   Reconstitution Phase
    12. Reconstitution Phase Procedures

•   Plan Appendices
    13. Contact Information of CP Teams
    14. Vendor Contact Information
    15. Checklist for System Recovery
    16. Equipment/System Requirements Lists
    17. Description/Direction to Alternative Sites

We analyzed the SWAs’ submissions to determine the extent to which they included the
17 plan elements, and whether the documentation represented an IT plan in and of
itself. We tabulated our conclusions in terms of whether the plan included, did not
include, or partially included these elements.

We did not observe SWA personnel activities, perform operational security tests, or
interview management or staff involved in the implementation and management of the
disaster recovery capability at the SWAs. We based our conclusions solely on evidence
provided by the SWAs.

We determined the risk of each SWA UI system based on historical data and
professional judgment regarding frequency of disasters declared in each state from
FEMA, as shown in the following table:




                                                              UI Systems’ IT Contingency Plans
                                              32                  Report No. 23-09-002-03-315
                                                     U. S. Department of Labor – Office of Inspector General




                                      FEMA Number of Disasters Declared by State/Territory
                                                         1953-2008

                                                               Number of Disasters Declared
                                  0   10       20         30            40      50            60   70     80      90

                        Texas
                    California
                       Florida
                   Oklahoma
                    New York
                    Louisiana
                    Kentucky
                     Alabama
                     Missouri
                       Illinois
                    Arkansas
                  Mississippi
                          Ohio
               Pennsylvania
               West Virginia
                 Washington
                   Minnesota
                      Virginia
                  Tennessee
                    Nebraska
                      Kansas
    State/Territory




                          Iowa
               North Dakota
              North Carolina
                      Indiana
                        Maine
                      Georgia
                   Wisconsin
                       Alaska
               South Dakota
                     Vermont
                      Oregon
                     Michigan
                 New Jersey
                       Hawaii
            New Hampshire
                 Puerto Rico
                 New Mexico
             Massachusetts
                        Idaho
                      Arizona
                     Montana
                    Maryland
                      Nevada
                    Colorado
             South Carolina
          US Virgin Islands
                 Connecticut
                    Delaware
                    Wyoming
                          Utah
               Rhode Island
        District of Columbia




Figure 1: Based on FEMA Number of Disasters Declared by State/Territory.


                                                                                       UI Systems’ IT Contingency Plans
                                                                   33                      Report No. 23-09-002-03-315
                                     U. S. Department of Labor – Office of Inspector General




Criteria

   •   Social Security Act of 1935

   •   20 CFR 602.00 (2008)

   •   UI Annual Funding Agreement

   •   ETA Handbook No. 336: UI SQSP Handbook

   •   NIST SP 800-34, Contingency Planning for Information Technology Systems

   •   OMB A-123: Management’s Responsibility for Internal Control

   •   FEMA, Declared Disasters by Year or State, as of December 15, 2008

   •   UIPL Number 24-04: UI IT Security




                                                             UI Systems’ IT Contingency Plans
                                             34                  Report No. 23-09-002-03-315
                                   U. S. Department of Labor – Office of Inspector General


                                                                           Appendix C
Acronyms and Abbreviations

A-123       OMB Circular A-123, Management’s Responsibility for Internal Control,
            Introduction

CFR         Code of Federal Regulations
CIO         Chief Information Officer
COOP        Continuity of Operations Plan
CP          Contingency Planning
DOL         United States Department of Labor
DRP         Disaster Recovery Plans
ETA         Employment and Training Administration
FEMA        Federal Emergency Management Agency
IT          Information Technology
NIST        National Institute of Standards and Technology
OIG         Office of Inspector General
OMB         Office of Management and Budget
SP          Special Publication
SQSP        State Quality Service Plan
SWA         State Workforce Agency
UI          Unemployment Insurance
UIPL        Unemployment Insurance Program Letter
UI Systems UI Tax and Benefit Systems
Y2K         Year 2000




                                                           UI Systems’ IT Contingency Plans
                                            35                 Report No. 23-09-002-03-315
         U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK




                                 UI Systems’ IT Contingency Plans
                 36                  Report No. 23-09-002-03-315
                                  U. S. Department of Labor – Office of Inspector General


                                                                           Appendix D
Agency Response to Draft Report




                                                          UI Systems’ IT Contingency Plans
                                          37                  Report No. 23-09-002-03-315
U. S. Department of Labor – Office of Inspector General




                        UI Systems’ IT Contingency Plans
        38                  Report No. 23-09-002-03-315
U. S. Department of Labor – Office of Inspector General




                        UI Systems’ IT Contingency Plans
        39                  Report No. 23-09-002-03-315
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:      http://www.oig.dol.gov/hotlineform.htm
Email:       hotline@oig.dol.gov

Telephone:   1-800-347-3756
             202-693-6999

Fax:         202-693-7020

Address:     Office of Inspector General
             U.S. Department of Labor
             200 Constitution Avenue, N.W.
             Room S-5506
             Washington, D.C. 20210
